                                                                  Issue Date
                                                                  March 16, 2007
                                                                   
                                                                  Audit Report Number
                                                                  2007-LA-1006




TO:         Stephen Schneller, Director, San Francisco Office of Public Housing, 9APH




FROM:       Joan S. Hobbs, Regional Inspector General for Audit, Region IX, 9DGA

SUBJECT: The Housing Authority of the County of Santa Clara, San Jose, California, Did
           Not Adequately Determine and Support Section 8 Rents


                                    HIGHLIGHTS

 What We Audited and Why

             We reviewed the Housing Authority of the County of Santa Clara’   s (Authority)
             Section 8 rent reasonableness determinations for its Section 8 Housing Choice
             Voucher program to determine whether they were consistent with U.S.
             Department of Housing and Urban Development (HUD) rules and regulations.
             We performed this review based on the size of the program and concerns raised
             by HUD.

 What We Found
             The Authority did not determine that rents charged to individuals receiving
             Section 8 housing assistance were reasonable. Further, it did not administer the
             rent reasonableness determinations in accordance with HUD rules and regulations
             or its HUD-approved administrative plan. Specifically,

                  The specialist(s) performing the rent reasonableness determinations did
                    not use the necessary characteristics of either the assisted unit or the units
                    selected as comparables. Therefore the units were not comparable.
               The database used to obtain comparable units was not always up-to-date;
                    contained data entry errors, duplicates, and erroneous information
                    regarding the subject unit; and did not always contain a sufficient number
                    of units that could be considered comparable for determining rent
                    reasonableness.

What We Recommend


           We recommend that the director of HUD’
                                                s San Francisco Office of Public
           Housing require the Authority to

               Establish adequate controls and procedures to ensure that it makes Section
                    8 housing assistance payments based on reasonable rent determinations.

               Establish and implement policies and procedures to ensure that Authority
                    specialists have information needed to determine reasonable rents. In
                    addition, ensure that the database used to obtain comparables is up-to-date
                    and free from errors and duplicates and contains a sufficient number of
                    units to determine reasonable rents.

               Support or reimburse HUD for questioned housing assistance payments in
                    the amount of $17,391. In addition, recapture $1.36 million, 8.7 percent
                    of the administrative fees earned during the period, for not performing rent
                    reasonableness in accordance with HUD rules and regulations.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’
       s Response


           We provided the Authority a draft report on February 9, 2007 and held an exit
           conference with officials on February 14, 2007. The Authority provided written
           comments on February 26, 2007. It generally agreed with the finding, but
           disagreed with the recommendation to recapture administrative fees. The
           complete text of the auditee’s response, along with our evaluation of that
           response, can be found in appendix B of this report.




                                              2
                            TABLE OF CONTENTS

Background and Objectives                                                        4

Results of Audit
Finding 1: The Authority Did Not Adequately Administer Its Rent Reasonableness   5
           Determinations in Accordance with HUD Rules and Regulations

Scope and Methodology                                                            15

Internal Controls                                                                16

Appendixes
   A.   Schedule of Questioned Costs                                             17
   B.   Auditee Comments and OIG’  s Evaluation                                  18
   C.   Summary of Unsupported Costs                                             26
   D.   Schedule of Deficiencies                                                 27
   E.   Applicable Regulations                                                   29




                                             3
                     BACKGROUND AND OBJECTIVES

The Housing Authority of the County of Santa Clara (Authority) provides rental subsidies and
develops affordable housing for low-income families, seniors, and persons with disabilities
living in Santa Clara County, California, the heart of Silicon Valley.

The Authority was established in 1967 by the Santa Clara County Board of Supervisors to
administer a federal rent subsidy program authorized under the United States Housing Act of
1937. The Authority’   s mission is to improve the lives of low-income families, persons with
disabilities, and seniors in Santa Clara County by providing affordable, high-quality housing.

The Authority’ s general operation is overseen by its board of commissioners, the members of
which are appointed by the Santa Clara County Board of Supervisors. The board of
commissioners consists of seven commissioners, one from each of the five supervisorial districts
and two tenants of the Authority, one being a senior citizen. Each member is appointed for a
four-year term, except for the resident commissioners, who are appointed for two-year terms.

The day-to-day operations of the Authority are carried out by the executive director, who
manages all agency departments and activities, which include administration of the Section 8
program and related special programs. The Authority administers 15,956 vouchers under the
Housing Choice Voucher program. Approximately 9,500 are for the County of Santa Clara and
the remainder are vouchers for the City of San Jose. During fiscal years 2005 and 2006, the
Authority paid more than $254 million in housing assistance payments to owners participating in
the program. Additionally, the Authority received more than $15.6 million in administrative fees
for administering the Section 8 program for the two fiscal years.

The audit objective was to determine whether the Authority’
                                                          s rent reasonableness determinations
were consistent with U.S. Department of Housing and Urban Development (HUD) rules and
regulations.




                                                4
                               RESULTS OF AUDIT

Finding 1: The Authority Did Not Adequately Administer Its Rent
Reasonableness Determinations in Accordance with HUD Rules and
Regulations

The Authority did not adequately perform its rent reasonableness determinations to ensure that
Section 8 rents were reasonable. We attribute this to the Authority’
                                                                   s not complying with HUD
rules and regulations or its own HUD-approved administrative plan. As a result, HUD overpaid
$17,391 in housing assistance payments and received more than $15 million in administrative
fees of which nearly $1.4 million was unearned.


 HUD Requires Rent
 Reasonableness Determinations


              HUD requires housing authorities to determine whether rents are reasonable
              before approving a lease and when a landlord requests annual or special contract
              rent adjustments (see appendix E). The Authority’  s administrative plan stated that
              is used a “comparison method”and tested the subject unit against selected units in
              the same area with similar characteristics. Adjustments were to be made for
              favorable and unfavorable differences between the subject unit and the
              comparables. Amenities, unit condition, services, and facilities were also to be
              evaluated when determining rent reasonableness. This agrees with HUD
              regulations.

              The Authority did not fully implement the requirements of their administrative
              plan. The Authority maintained a database of comparables based on rent surveys
              performed by its inspectors. Each inspector was required to locate and document
              20-25 properties each month to be used as comparables to determine whether an
              assisted unit’ s rent was reasonable. Rent surveys were then scanned into the
              Authority’ s imaging system by region and bedroom size. The Authority specialist
              retrieved a listing of comparables from which to select three units to be used to
              make the determination. We found duplicate, triplicate, and erroneous
              information regarding the units in the system. Upon obtaining the listing of
              comparables, the Authority specialist would often select the highest, lowest, and a
              medium rent and average the three, thus deriving what was considered the “    rent
              based on comparables.”No adjustments were made because there was no
              information available on which to make the adjustments.




                                               5
            We determined the following:

                Individuals performing rent reasonableness determinations did not have
                 adequate knowledge of the characteristics of either the assisted units or
                 units used as comparables. Therefore, units were not always comparable.
                Rent reasonableness determinations were not always performed.
                Assisted unit rents exceeded rents for other assisted units in the same
                 complex.

Specialists Did Not Obtain
Adequate Support When
Selecting Comparables


            The Authority specialist performing the rent reasonableness determination did not
            use the necessary characteristics of either the assisted unit or the units selected as
            comparables. The only information the specialists generally used was the region
            (a region generally had eight or more zip codes), the unit’  s structure type
            (apartment, single family, etc.), and the unit’s size (number of bedrooms). In
            addition, the approved administrative plan also states “  Adjustments are made for
            favorable and unfavorable differences between the subject unit and the
            comparables.”

            It was the Authority’  s unwritten practice that the specialists selected comparables
            for the assisted unit from a system-generated comparable list. The specialist did
            not always retrieve information by obtaining the rent survey scanned in the
            Authority’ s imaging system, unit profile entered in the Public/Indian Housing
            Authority System database, or information from MetroScan. MetroScan is a
            subscription service describing itself as “ …the nation’  s largest collector and
            provider of real estate focused public record information.”The data are obtained
            from many sources including County Recorder and Assessor records. Although
            the Authority claimed that the specialists knew their areas, the system-generated
            comparables used for the assisted unit did not always meet requirements and the
            Authority could not show us any adjustment, either favorable or unfavorable,
            made during the rent reasonableness process.

            As a result of not obtaining adequate information on the characteristics of either
            the assisted unit or the units selected as comparables, 40 of 50 cases reviewed, or
            80 percent of the rent reasonable determinations, were not in accordance with
            HUD rules and regulations and accordingly were not supported and valid (see
            appendix D).




                                              6
      The following two cases are representative of the problem:

Tenant Subsidy #V30090

      The specialist chose six properties in San Jose from the system-generated
      comparison list and averaged the rent of those six properties. The average rent
      was the basis for approving the contract rent. The specialist did not obtain
      adequate support for of the assisted and comparable units. There was an extreme
      difference in the determining factors for rent reasonableness, such as quality,
      square footage, and unit age.




      Assisted Unit in San Jose

      The assisted unit is a one-story, single-family residence with three bedrooms, one
      and one-half bathrooms, and 1,494 square feet in living area. It was built in 1953
      and is average in quality and condition.




                                       7
One of Six Units Selected as Comparable

This unit used as a comparable has two bedrooms, one bathroom, and 1,394
square feet in living area. This house is dilapidated (built in 1904) and is awaiting
demolition.




One of Six Units Selected as Comparable

The unit used as a comparable has three bedrooms, two and one-half bathrooms,
and 1,937 square feet in living space. It is a nice house with a two-car garage,
was built in 2004, and is located in an upscale neighborhood.




                                  8
      The units selected as comparable were quite different in size, age, amenities, and
      quality. The specialist performing the rent determination did not obtain
      appropriate comparables to determine the reasonable rent. We were able to
      identify three units that were comparable and determined a reasonable rent. We
      identified there was $1,092 in ineligible housing assistance payments during the
      period of our review.

Tenant Subsidy #V29749

      One assisted apartment unit had comparables selected that included a unit in a
      triplex, a unit in a four-plex, and a single-family home. None of these were
      comparable to the assisted unit. No adjustments were made due to the triplex unit
      being 365 square feet smaller and the single-family unit 501 square feet larger.




      Assisted Unit Is an Apartment in a Large Complex in Milpitas

      The assisted unit is an apartment in a large complex. It has two bedrooms, one
      bathroom, and 997 square feet in living space.




                                       9
Triplex Selected as Comparable to the Apartment Unit in a Large Complex
in Milpitas

The assisted unit and the comparable are of a different structure type. This triplex
was selected as a comparable to the apartment located in a large complex. It has
two bedrooms, one bathroom, and 632 square feet in living space.




Four-Plex Selected as a Comparable to an Apartment Unit in a Large
Complex in Milpitas

The assisted unit and the comparable are of a different structure type. This four-
plex was used as a comparable for the assisted unit, which is an apartment. It has
two bedrooms, one bathroom, and 882 square feet in living space.




                                 10
Single-Family Residence Used as Comparable for an Apartment Unit in a
Large Complex in Milpitas

The assisted unit and the comparable are of a different structure type. This single
family residence was used as a comparable for an apartment. It has two bedrooms
and 1,498 square feet in living space.

As demonstrated above, the Authority’   s practice for determining rent
reasonableness resulted in selecting comparables that were not similar to the
assisted unit. The units selected as comparable were different in size, age,
amenities, and quality.

Had the specialist followed proper procedures, an adequate comparable may still
not have been found. The Authority’  s Public/Indian Housing Authority System
contains its database used to make rent reasonableness determinations. However,
we determined the database was not always up-to-date, contained erroneous
information and duplicates, and did not always contain a sufficient number of
units that could be considered comparable for determining rent reasonableness. In
addition, a former inspection supervisor stated there were no controls over this
database to ensure information entered was correct.

In nine cases, we were able to determine the reasonable rent for the assisted unit
using information on comparable units entered in the Authority’   s database. Based
on our review, there was a total of $8,744 in ineligible housing assistance
payments.



                                11
Rent Reasonableness
Determinations Were Not
Performed


            In 10 percent of the files reviewed, rent reasonableness was either not performed
            or was performed after the disbursement of the housing assistance payment.
            There were three cases where rent reasonableness determinations were not
            performed at all. For tenant V76247, the Authority specialist accepted three
            “comparables”provided by the management company/owner without determining
            whether they were acceptable comparables. One of the properties was in a more
            upscale, gated complex, and its higher rent increased the contract rent for the
            assisted unit. We performed our own rent reasonableness determination, using
            three like and similar comparables, and determined the contract rent was
            unsupported. Therefore, we questioned a total of $1,484.

            In 2 of 50 cases reviewed, an increase in the housing assistance payment was paid
            before a rent reasonableness determination was made. In the case of tenant
            V20461, the lease began on November 1, 2005; however, the rent reasonableness
            determination was performed on December 5, 2005. The approval for an increase
            to the rent was made on January 3, 2006. We questioned the $50 rent increase for
            two months as unsupported (see appendix C).

Assisted Unit Rent Exceeded
Rents for Other Assisted Units in
the Same Complex


            HUD regulations and the Authority’    s administrative plan also require that the
            approved rent does not exceed rents currently charged by the same owner for an
            equivalent assisted or unassisted unit in the same building or complex. We
            identified in 5 of 50, or 10 percent, of the cases reviewed, the assisted units’rent
            exceeded rents for other assisted units of the same size in the same complex.

            One apartment complex in San Jose has two buildings—3955 and 3975.
            Although the street numbers are different, the buildings are in the same complex,
            and according to the building management, the buildings and units are identical—
            one-bedroom apartments with 550 square feet in living space. However, rents
            charged to Section 8 tenants at the 3975 address were $47 higher, starting March
            2005, and $50 higher, starting March 2006, than the rent charged to Section 8
            tenants at the 3955 address. There were five units and the ineligible payment
            amounted to $3,820.

            See appendix D for a summary of all deficiencies identified during the review.




                                             12
Conclusion


             The Authority did not adequately determine Section 8 reasonable rents or
             administer the rent reasonableness determinations in accordance with HUD rules
             and regulations or its HUD-approved administrative plan. As a result, the
             Authority paid owners questioned costs of at least $17,391 on the 50 units
             reviewed (see appendix C). This included $12,564 in ineligible housing
             assistance payments and $4,827 in unsupported payments. Therefore since the
             Authority did not properly administer its rent reasonableness determination
             process, we recommend that HUD recapture the appropriate amount of
             administrative fees pertaining to the rent reasonableness determination process.

             For fiscal years 2005 and 2006, the Authority received more than $15 million in
             administrative fees from HUD to administer its Section 8 housing program.
             Based on information received from its managers, we determined approximately
             8.7 percent of employee time in the Housing Programs Division was dedicated to
             the rent reasonableness process. Therefore we recommend that 8.7 percent of the
             administrative fees or $1.36 million be repaid to HUD.




                                             13
Recommendations


          We recommend that the director of the San Francisco Office of Public Housing
          require the Authority to

          1A.    Establish and implement controls to ensure policies and procedures are
          followed so that Authority specialists use information needed to determine
          reasonable rents.

          1B.    Establish and implement policies and procedures to ensure that the
          database used to obtain comparables is up-to-date and free from errors and
          duplicates and contains a sufficient number of units to determine reasonable rents.

          1C.    Conduct training for all individuals involved in rent reasonableness
          determinations on the approved policies and procedures.

          1D.     Reimburse HUD for ineligible housing assistance pays totaling $12,564.

          1E.    Support or reimburse HUD for unsupported housing assistance payments
          of $4,827 (see appendix C).

          1F.    Recapture 8.7 percent of the administrative fees for fiscal years 2005 and
          2006 in the amount of $1.36 million for not performing rent reasonableness
          determinations in accordance with HUD rules and regulations.




                                          14
                         SCOPE AND METHODOLOGY

The scope of the audit was July 1, 2004, through June 30, 2006.

To accomplish our objective, we

       
              Reviewed relevant HUD handbooks, Code of Federal Regulations citations, and
               any other guidance.

       
              Reviewed related information from HUD systems.

       
              Interviewed HUD and Authority personnel to obtain background information
               about the Authority and its Section 8 program.

       
              Interviewed property managers and at least one owner to obtain information on
               both assisted and unassisted units selected as comparables.

       
              Obtained relevant documents from the Authority pertaining to the review of rent
               reasonableness determinations.

       
              Selected nonstatistical samples and performed reviews of 50 tenant files.

       
              Conducted on-site visits to all assisted and comparable units included in the 50
               files reviewed.

       
              Performed rent reasonableness determinations on nine of the files reviewed.

We took photographs of most assisted and unassisted units selected as comparables for all files
reviewed totaling at least 200 properties.

We performed on-site work at the Authority, located at 505 West Julian Street, San Jose,
California, from May through November 2006.

We performed our review in accordance with generally accepted government auditing standards.




                                               15
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

    Effectiveness and efficiency of operations,
    Reliability of financial reporting, and
    Compliance with applicable laws and regulations.

Internal controls relate to management’ s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls
              We determined the following internal controls were relevant to our audit objectives:

                           Administration of the Section 8 program as it relates to rent
                      reasonableness determinations in compliance with HUD regulations,
                           Maintaining complete and accurate records, and
                           Safeguarding Section 8 program resources.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’  s objectives.

 Significant Weaknesses
              Based on our review, we believe the following items are significant weaknesses:

                  The Authority did not have controls to ensure it followed federal
                  regulations and its HUD-approved policies and procedures provided in the
                  administrative plan to properly administer the rent reasonableness
                  determinations or safeguard Section 8 resources.
                  The Authority did not have controls to ensure its records were complete
                  and accurate.




                                               16
                                    APPENDIXES

Appendix A

                 SCHEDULE OF QUESTIONED COSTS

        Recommendation         Ineligible 1/        Unsupported 2/   Unreasonable or
            number                                                   unnecessary 3/
               1D                $12,564
               1E                                      $4,827
               1F                                                       $1,362,601


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or federal, state, or local
     policies or regulations. We determined that housing assistance payments of $12,564 are
     ineligible costs because the Authority did not adequately determine Section 8 reasonable
     rents or administer the rent reasonableness determinations in accordance with HUD rules
     and regulations or its HUD-approved administrative plan.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of audit. Unsupported costs
     require a decision by HUD program officials. This decision, in addition to obtaining
     supporting documentation, might involve a legal interpretation or clarification of
     departmental policies and procedures. In this instance, we determined that $4,827 in
     rents was unsupported because the rent reasonableness determinations were not done in
     accordance with HUD rules and regulations. In some cases, we were able to determine
     appropriate rents based on like and similar comparable properties. Appendix C details
     the unsupported costs by tenant.

3/   Unreasonable/unnecessary costs are those costs not generally recognized as ordinary,
     prudent, relevant, and/or necessary within established practices. Unreasonable costs
     exceed the costs that would be incurred by a prudent person in conducting a competitive
     business. The administrative fees paid to the Authority to administer the Section 8
     Housing Choice Voucher program were not fully earned because the Authority did not
     fulfill its administrative duties relative to rent reasonableness determinations. During the
     period of our review, the Authority received more than $15 million in administrative fees
     for administering the Section 8 program. We determined 8.7 percent of the full-time
     employees in the Authority’    s Housing Programs Division were performing rent
     reasonableness functions. Therefore, we recommend recapturing 8.7 percent of the
     administrative fees, or $1,362,601.




                                               17
Appendix B

        AUDITEE COMMENTS AND OIG’
                                S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1




Comment 2




                         18
Comment 1




            19
Comment 2




Comment 3




            20
Comment 2




Comment 4




Comment 5




            21
Comment 2




Comment 6




            22
Comment 2




            23
                         OIG Evaluation of Auditee Comments

Comment 1   Since the Authority agreed with the finding and is already taking corrective action,
            we have no further comment on the finding. However, we would like to point out,
            that while we agree that the rents in some cases were below the voucher payment
            standards, the Authority should still comply with HUD rules and regulations, as well
            as its HUD-approved administrative plan. Further, while our audit report only
            discussed results of the 50 tenant files we reviewed, it should be pointed out that the
            Authority consistently failed to administer its rent reasonableness determinations in
            accordance with HUD requirements.

Comment 2   The methodologies used for calculating the administrative fee to be recaptured
            under this audit as well as our audit of Housing Authority of the County of Contra
            Costa were consistent. The amount was based on the percentage of full-time-
            equivalent employees dedicated to the rent reasonableness process, and applied to
            our audit scope. We consulted with the director of the San Francisco HUD Office
            of Public and Indian Housing, and obtained his concurrence with the methodology
            used. As discussed in Comment 5, the percentage was based on information
            obtained directly from the Authority’  s managers in the housing programs
            division. Therefore, we believe the administrative fee recommended for recapture
            is accurate and did not make any changes to the amount. The Authority can work
            with HUD during the audit resolution process if it feels that the amount is
            inaccurate.

            As discussed in Comment 1, the Authority consistently failed to administer its
            rent reasonableness determinations in accordance with HUD requirements.
            Therefore, we believe the Authority did not earn the applicable portion of the
            administrative fees. This systemic problem was the basis for recommending
            recapture of a percentage of the administrative fee. Each external audit we
            conduct has different circumstances, including different scopes and different
            reasons for the deficiencies, so it is inappropriate to compare each audit as though
            they were the same.

Comment 3   The Authority is paid the administrative fee to correctly and adequately
            administer the Section 8 program. The rent reasonableness determinations, while
            only a part of the entire process, are integral to administering the Section 8
            program correctly. As discussed in Comment 1, the Authority consistently failed
            to administer its rent reasonableness determinations in accordance with HUD
            requirements. While we agree that we only questioned housing assistance
            payments for 24 cases, the fact remains that 40 out of 50 files (80 percent) we
            reviewed were not done in accordance with HUD requirements. In these 40 files,
            we found that the selected “ comparables”were not really comparable to the
            assisted units. We could not determine rent reasonableness in every case, partly
            due to the inadequacy of the Authority’   s database.




                                              24
Comment 4   Our report states that the Authority disregarded HUD requirements and the
            Authority agreed in its written response that it did not administer its rent
            reasonableness determinations in accordance with HUD requirements. Our audit
            disclosed that housing assistance payments were made although reasonable rents
            were not determined according to HUD requirements.


Comment 5   The results of our audit disclosed the Authority, for the period July 1, 2004
            through June 30, 2006, was not following HUD requirements in determining
            whether rents were reasonable. Therefore, we determined there was no assurance
            the current rents were reasonable. The audit period for OIG audit report dated
            August 29, 2001, was November 1998 through March 2001. We cannot address
            what the Authority’ s policies and procedures were during that time for
            determining rent reasonableness.

Comment 6   We believe the 8.7 percent is accurate and logical, based on the information we
            were provided during the audit. We interviewed all section managers involved in
            the rent reasonableness process and determined that 8.7 percent of the full-time-
            equivalent employees in the housing program perform work related to the rent
            reasonableness process. Based on our review, the Authority should return the
            unearned administrative fees because it did not comply with rent reasonableness
            requirements and lacked sufficient data to perform the determinations. If this
            percentage needs to be adjusted for administrative and finance department
            employees, the Authority can provide this information to HUD during the audit
            resolution process.




                                            25
Appendix C

                    SUMMARY OF QUESTIONED COSTS

                                        Months
 File   Subsidy #    Lease Effective   Questioned    Ineligible Costs   Unsupported Costs
  1      V00282        1-Mar-05           16               764
  2      V76247         1-Apr-05          14               1484
  3      V01765         1-Jun-05           5                                                365
  4      V20017                            0                                                  0
  5      V79464         1-Nov-05           5              1260
  6      V29749                            0                                                  0
  7      V29749         1-Jan-06           6                                                522
  8      V78758        1-May-06            2                                                638
  9      V78758                            0                                                  0
  10     V78927                            0                                                  0
  11     V73551         1-Mar-05          16               764
  12     V31095                            0                                                  0
  13     V21423                            0                                                  0
  14     V78752                            0                                                  0
  15     V72084                            0                                                  0
  16     V74183                            0                                                  0
  17     V48168                            0                                                  0
  18     V01305         1-Mar-05          16              764
  19     V78993         1-Nov-05           8              1000
  20     V20238         1-Mar-05          16              764
  21     V31103                            0                                                  0
  22     V28178                                                                               0
  23     V28178                           0                                                   0
  24     V73597         1-Jul-05          5               861
  25     V30090         1-Jan-06          6               1092
  26     V27595                           0                                                   0
  27     V20461         1-Nov-05          2                                                 100
  28     V26638                           0                                                   0
  29     V77678                           0                                                   0
  30     V27011                           0                                                   0
  31     V27486        1-May-06           2                                                 100
  32     V27757        14-Mar-06          3                267
  33     V26760        1-Mar-06           3                                                 921
  34     V23389                           0                                                   0
  35     V72606         1-Mar-05          16              764
  36     V78506         1-Mar-05          14              1610
  37     V72380                           0                                                 0
  38     V22364         1-Jan-06          6                                               522
  39     V71655         1-Jun-06          1                                                30
 40      V78939         1-Oct-05          9                                             1,485
 41      V77735                           0                                                 0
 42      V74463                           0                                                 0
 43      V30826                           0                                                 0
 44      V24272                                                                             0
 45      V79458                            0                                                0
 46      V79488        1-Nov-05            8              960
 47      V79420        1-Dec-05            7              210
 48      V78550                            0                                                  0
 49      V21347                            0                                                  0
 50      V78178        1-Feb-05            1                                                144
         Total                                           12,564                         4,827




                                                    26
Appendix D

                     SCHEDULE OF DEFICIENCIES

      Tenant
File Subsidy #   1    2   3   4        5    6
1     V00282     x                          x
2     V76247     x            x
3     V01765     x        x
4     V20017     x
5     V79464     x    x   x
6     V29749     x    x
7     V29749     x    x
8     V78758     x        x
9     V78758     x
10    V78927     x
11    V73551     x                          x
12    V31095     x    x
13    V21423     x        x
14    V78752     x        x
15    V72084
16    V74183     x    x
17    V48168     x
18    V01305     x                          x
19    V78993     x
20    V20238     x                          x
21    V31103     x
22    V28178     x    x
23    V28178     x
24    V73597                  x
25    V30090     x
26    V27595
27    V20461                           x
28    V26638     x
29    V77678
30    V27011     x
31    V27486     x    x
32    V27757
33    V26760     x    x
34    V23389     x    x
35    V72606     x                          x
36    V78506     x
37    V72380     x    x
38    V22364     x    x
39    V71655     x        x
40    V78939                  x
41    V77735
42    V74463
43    V30826
44    V24272     x    x
45    V79458     x        x
46    V79488     x        x
47    V79420     x        x
48    V78550     x        x
49    V21347     x
50    V78178     x        x            x




                                  27
Legend

1   Assisted and comparables used are not like and similar.
2   "Comparable unit" with different structure type.
3   "Comparable unit" with different unit size.
4   Rent reasonableness determination not performed.
5   Rent reasonableness performed after housing assistance payment disbursement.
6   Assisted unit rent exceeded rents for other assisted units in the same complex.




                                              28
Appendix E

                         APPLICABLE REGULATIONS

The following sections of the Code of Federal Regulations apply to rent reasonableness
determination:

24 CFR 982.507 states the following:

   
   The PHA [public housing authority] may not approve a lease until the PHA determines
     that the initial rent to owner is a reasonable rent. Section 982.507(a)(1)

   
   The PHA must redetermine reasonable rent (a) before any rent increase in the rent to the
     owner, (b) if there is a 5 percent decrease in the published FMR [identify acronym] in
     effect 60 days before the contract anniversary, or (c) if directed by HUD. Section
     982.507(a)(2)

   
   The PHA must determine whether the rent to owner is a reasonable rent in comparison to
     rent for other unassisted comparable units. Section 982.507(b)

24 CFR 982.54 states: “   The PHA must adopt a written administrative plan that establishes local
policies for administration of the program in accordance with HUD requirements.

24 CFR 982.158(f)(7) states: “   The PHA must keep the following records for at least three years.
Records to document the basis for PHA determination that rent to owner is a reasonable rent
(initially and during the term of a HAP [housing assistance payment] contract).”

24 CFR 982.152(2)(d) states: “  HUD may reduce or offset any administrative fee to the PHA, in
the amount determined by HUD, if the PHA fails to perform PHA administrative responsibilities
correctly or adequately under the program.”




                                               29
